4
(F.T.C.A.) Civil Suit/Case No.

IN THE
SUPREME COURT OF THE UNITED STATES
DANIEL LORING
Petitioner
v.
UNITED STATES
Respondent
CERTIFICATE PROOF OF SERVICE
I, D arnel Loring, Petitioner (Pro Se), do swear and/or declare that on this date,
August ^ 2021, as required by Supreme Court Rule 29; I have served the enclosed
PETITION FOR EXTRAORDINARY WRIT OF CERTIORARI with APPENDIX by
the Unite^fStates Postal Service, Priority Mail signature service postage prepaid on
August

, 2021; to:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, NW
Washington D.C., 20530-0001

I declare under
Executed on August

nalty of perjury that the foregoing is true and correct.
, 2021

Petitioner (Pro Se)___^

32

